t \

i.

• X

In the
Supreme Court of the United States

Jorel Shophar,
Petitioner,
v.
Johnson County Kansas
Judge Christina Gyllenborg
Judge Kathleen Sloan
Kansas Department of Children and Families
KVC Health
Respondents.

CERTIFICATE OF SERVICE
I, Jorel Shophar, hereby certify that on this 29th day of January, 2021,1 caused three
copies of the Writ of Cert of the Petitioner to be served by USPS delivery on the
following Respondents:
Johnson County
111S. Cherry
Olathe, KS 66061
Johnson County District Court
Judge Christina Gyllenborg
150 W. Santa Fe St.
Olathe, Kansas 66061
Johnson County District Court
Judge Kathleen Sloan
150 W. Santa Fe St.
Olathe, Kansas 66061

1

Kansas Department of Children and Families
555 S Kansas Ave.
Topeka, KS 66603
KVC Health
419 SW 29th St.
Topeka, KS 66611

I further certify that all parties required to be served have been served.

dorel/Shophar
1900 E. Golf Rd., Suite 950
Schaumburg, IL 60173
(773) 563-9851
Shophar@UnitedStatesChurch.us

2

